                                          NATIONAL SCIENCE FOUNDATION
                                           OFFICE OF INSPECTOR GENERAL
                                            OFFICE OF INVESTIGATIONS

                                    CLOSEOUT MEMORANDUM

TO: AIGI           File Number: I95020003                                  Date: 15 March 2002

Subject: Closeout Memo                                                               Page 1 of I


      There was no closeout written at the time this case was closed. The following information was
      extracted from the file in conformance with standard closeout documents.

      Our office was informed that the subject' was alleged to have abused ETAS by not signing in,
      receiving work credit for days absent. Our office referred this case to HRM. The subject was
      reprimanded and the timekeepe? was removed from timekeeper duties.

      Accordingly this case is closed.




        --     -


                    Prepared by:                   Cleared by:

                   Agent:          Attorney:     Supervisor:     AIGI
   Name:



 Signature &
    date:
